 Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




REVIEW OF MEDICARE CONTRACTOR
     INFORMATION SECURITY
   PROGRAM EVALUATIONS FOR
       FISCAL YEAR 2011

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                     January 2014
                                                     A-18-13-30100
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 The evaluations of the Medicare contractor information security program were adequate
 in scope and were sufficient, but the Centers for Medicare & Medicaid Services should
 continue to ensure that all Medicare contractor findings are remediated.

WHY WE DID THIS REVIEW

Each Medicare contractor must have its information security program evaluated annually by an
independent entity. These evaluations must address the eight major requirements enumerated in
the Federal Information Security Management Act of 2002 (FISMA). The Social Security Act
(the Act) also requires evaluations of the information security controls for a subset of systems
but does not specify the criteria for these evaluations. The Inspector General, Department of
Health and Human Services, must submit to Congress annual reports on the results of these
evaluations, to include assessments of their scope and sufficiency. This report fulfills that
responsibility for fiscal year (FY) 2011.

Our objectives were to assess the scope and sufficiency of Medicare contractor information
security program evaluations and report the results of those evaluations and assessments.

BACKGROUND

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added to the Act
information security requirements for Medicare administrative contractors (MACs), fiscal
intermediaries, and carriers, which process and pay Medicare fee-for-service claims. To comply
with these requirements, the Centers for Medicare & Medicaid Services (CMS) contracted with
PricewaterhouseCoopers (PwC) to evaluate information security programs at the MACs, fiscal
intermediaries, and carriers using a set of agreed-upon procedures.

The Act also requires evaluations of the information security controls for a subset of systems but
does not specify the criteria for these evaluations. To satisfy this requirement, CMS expanded
the scope of its evaluations to test segments of the Medicare claims processing systems hosted at
the Medicare data centers, which support each of the MACs, fiscal intermediaries, and carriers.

WHAT WE FOUND

PwC’s evaluations of the contractor information security programs were adequate in scope and
were sufficient. PwC reported a total of 127 gaps at 11 Medicare contractors for FY 2011, which
was a decrease of 23 percent from FY 2010. Gaps are defined as the differences between
FISMA or CMS core security requirements and the contractors’ implementation of them.

Assessment of Scope and Sufficiency

PwC’s evaluations of the contractor information security programs adequately encompassed in
scope and sufficiency the eight FISMA requirements referenced in the Act.



Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)   i
Results of Contractor Information Security Program Evaluations

The results of the contractor information security program evaluations are presented in terms of
gaps.

At the 11 contractors in FY 2011, which covered all MACs, fiscal intermediaries, and carriers,
PwC identified a total of 127 gaps, which it consolidated into 95 findings. The contractors are
responsible for developing a corrective action plan for each finding. The number of gaps per
contractor ranged from 5 to 17 and averaged 12. The most gaps occurred in the following
FISMA control areas: policies and procedures to reduce risk (41 gaps at 11 contractors), testing
of information security controls (35 gaps at 11 contractors), incident response (17 gaps at 11
contractors), and security program and system security plans (14 gaps at 7 contractors).

The number of gaps decreased by 23 percent when compared with the results for FY 2010. CMS
is responsible for tracking each finding until it is remediated.

CONCLUSION

The scope of the work and sufficiency of documentation for all reported gaps were sufficient for
the 11 Medicare contractors reviewed by PwC. While the total number of gaps identified at the
Medicare contractors has decreased from the previous year, deficiencies remain in the FISMA
control areas tested. CMS should continue to ensure that all gaps are remediated by the
Medicare contractors.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS had no additional comments to the draft report.




Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...........................................................................................................................1

          Why We Did This Review ...................................................................................................1

          Objectives ............................................................................................................................1

          Background ..........................................................................................................................1
                The Medicare Program ............................................................................................1
                Medicare Prescription Drug, Improvement, and Modernization Act of 2003 .........1
                CMS Evaluation Process for Fiscal Year 2011........................................................2

          How We Conducted This Review........................................................................................3

FINDINGS             ..................................................................................................................................3

          Assessment of Scope and Sufficiency .................................................................................3

          Results of Medicare Contractor Information Security Program Evaluations ......................3
                 Policies and Procedures To Reduce Risk.................................................................5
                 Testing of Information Security Controls ................................................................5
                 Incident Detection, Reporting, and Response ..........................................................6
                 Security Program and System Security Plans ..........................................................7

CONCLUSION ................................................................................................................................7

CMS COMMENTS .........................................................................................................................7

APPENDIXES

          A: Audit Scope and Methodology ......................................................................................8

          B: List of Gaps by Federal Information Security Management Act of 2002
              Control Area and Medicare Contractor........................................................................9

          C: Percentage Change in Gaps per Medicare Contractor ................................................10

          D: Results of Medicare Contractor Evaluations for Federal Information
               Security Management Act of 2002 Control Areas with the Greatest
               Number of Gaps ......................................................................................................11

          E: CMS Comments ..........................................................................................................16




Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)                                                   iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) requires
that each Medicare contractor have its information security program evaluated annually by an
independent entity. These evaluations must address the eight major requirements enumerated in
the Federal Information Security Management Act of 2002 (FISMA). The Social Security Act
(the Act) also requires evaluations of the information security controls for a subset of systems
but does not specify the criteria for these evaluations. The Inspector General, Department of
Health and Human Services, must submit to Congress annual reports on the results of these
evaluations, to include assessments of their scope and sufficiency. This report fulfills that
responsibility for fiscal year (FY) 2011.

OBJECTIVES

Our objectives were to assess the scope and sufficiency of Medicare contractor information
security program evaluations and report the results of those evaluations.

BACKGROUND

The Medicare Program

The Centers for Medicare & Medicaid Services (CMS) administers Medicare. Medicare is a
health insurance program for people age 65 or older, people under age 65 with certain
disabilities, and people of all ages with end-stage renal disease. In FY 2011, Medicare paid more
than $474 billion on behalf of more than 49 million Medicare beneficiaries. CMS contracts with
Medicare Administrative Contractors (MACs), fiscal intermediaries, and carriers to administer
Medicare benefits paid on a fee-for-service basis. In FY 2011, 11 distinct entities served as
MACs, fiscal intermediaries, and carriers for Medicare Parts A and B to process and pay
Medicare fee-for-service claims.

Medicare Prescription Drug, Improvement, and Modernization Act of 2003

The MMA added information security requirements for MACs, fiscal intermediaries, and carriers
to section 1874A of the Act. 1 (See 42 U.S.C. § 1395kk-1.) Each MAC, fiscal intermediary, and
carrier must have its information security program evaluated annually by an independent entity
(the Act § 1874A(e)(2)(A)). This section requires that these evaluations address the eight major
requirements enumerated in the FISMA. (See 44 U.S.C. § 3544(b).) These requirements,
referred to as “FISMA control areas” in this report, are:

        1. periodic risk assessments;


1
 The MMA contracting reform provisions added to section 1874A of the Act replace existing fiscal intermediaries
and carriers with MACs, which are competitively selected. Until all MACs are in place, the requirements of
section 1874A also apply to fiscal intermediaries and carriers.

Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)                1
        2. policies and procedures to reduce risk;

        3. security program and system security plans;

        4. security awareness training;

        5. testing of information security controls;

        6. remedial actions;

        7. incident detection, reporting, and response; and

        8. continuity of operations planning.

Section 1874A(e)(2)(A)(ii) of the Act requires that the effectiveness of information security
controls be tested for an appropriate subset of Medicare contractors’ information systems.
However, this section does not specify the criteria for evaluating these security controls.

Additionally, section 1874A(e)(2)(C)(ii) of the Act requires us to submit to Congress annual
reports on the results of such evaluations, including assessments of their scope and sufficiency.

CMS Evaluation Process for Fiscal Year 2011

CMS developed agreed-upon procedures (AUP) for the program evaluation on the basis of the
requirements of section 1874A(e)(1) of the Act, FISMA, information security policy and
guidance from the Office of Management and Budget and the National Institute of Standards and
Technology (NIST), and the Government Accountability Office’s (GAO) Federal Information
Systems Controls Audit Manual (FISCAM). In FY 2011, 11 distinct entities served as MACs,
fiscal intermediaries, and carriers. The independent auditors, PricewaterhouseCoopers (PwC),
under contract with CMS, used the AUPs to evaluate the information security programs at the 11
entities. Many of the entities had multiple contracts with CMS to fulfill their responsibilities as
Medicare fiscal intermediaries, carriers, A/B MACs, and Durable Medical Equipment MACs.
As a result, PwC issued separate reports for 20 MACs, fiscal intermediaries, and carriers.

To comply with the section 1874A(e)(2)(A)(ii) requirement to test the effectiveness of
information security controls for an appropriate subset of contractors’ information systems, CMS
included in the scope of its AUP evaluations testing of segments of the Medicare claims
processing systems hosted at the Medicare data centers, which support each of the MACs, fiscal
intermediaries, and carriers. Medicare data centers are used for “front-end” preprocessing of
claims received from providers and “back-end” issuing of payments to providers after claims
have been adjudicated. PwC performed additional testing to eliminate the need to contract with
another entity to perform the assessments that had previously been performed at the fiscal
intermediaries, carriers, and MAC data centers.

The results of the contractor information security program evaluations are presented in terms of
gaps or findings, which are defined as differences between FISMA or CMS core security

Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)   2
requirements and the contractor’s implementation of the requirements. In some instances, PwC
determined that gaps involving the contractor’s internal control and its operations did not rise to
the level of a finding, so they were noted as an observation. PwC assigned impact levels to each
of the findings. The contractors are responsible for developing a corrective action plan for each
finding, and CMS is responsible for tracking all corrective action plans and ensuring that the
findings are remediated.

HOW WE CONDUCTED THIS REVIEW

We evaluated the FY 2011 results of the independent evaluations of the Medicare contractors’
information security programs. Our review did not include an evaluation of internal controls.

We conducted this performance audit in accordance with generally accepted government
auditing standards, except that we did not obtain comments from PwC. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                               FINDINGS

PwC’s evaluations of the contractor information security programs were adequate in scope and
were sufficient. PwC reported a total of 127 gaps, which resulted in 95 findings and 32
observations.

ASSESSMENT OF SCOPE AND SUFFICIENCY

PwC’s evaluations of the contractor information security programs adequately encompassed in
scope and sufficiency the eight FISMA requirements referenced in section 1874A(e)(1) of the
Act.

RESULTS OF MEDICARE CONTRACTOR INFORMATION SECURITY PROGRAM
EVALUATIONS

As shown in Table 1, PwC identified a total of 127 gaps at the 11 Medicare contractors. The
number of gaps per contractor ranged from 5 to 17 and averaged 12. See Appendix B for a list
of gaps per control area by contractor.

                          Table 1: Range of Medicare Contractor Gaps
                                                   Number of Contractors With
                  Number of         Total       0    1-5      6–10    11-15   16+
         FY       Contractors       Gaps       Gaps Gap(s) Gaps       Gaps    Gaps
        2010          11             166        0     0         1       5      5
        2011          11             127        0     1         3       5      2

Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)   3
The total number of gaps reported decreased by 23 percent (166 in FY 2010 to 127 in FY 2011).
While the number of contractors with 6 to 10 gaps increased by 2, the number of contractors with
16 or more gaps decreased by 3. Eight contractors had fewer gaps in FY 2011, and three
contractors had more gaps. See Appendix C for the FY 2010 to FY 2011 percentage change in
gaps per Medicare contractor.

Table 2 summarizes the gaps found in each FISMA control area in FYs 2010 and 2011. Only
two of the eight FISMA control areas had an increase in gaps for FY 2011, with an increase of
only one or two gaps.

Table 2: Gaps by Federal Information Security Management Act Control Area in FY 2011
                                                                                     No. of Contractors
                                        Impact Levels           No. of Gaps          With One or More
                                          of FISMA               Identified                Gap(s)
             FISMA                      Control Area           FY         FY           FY         FY
           Control Area                 Subcategories         2010       2011         2010       2011
                                           High &
Periodic risk assessments                                       5             1            5         1
                                           Medium
Policies and procedures to reduce
                                              High             39            41          11          11
risk
Security program and system                 High &
                                                               27            14          11          7
security plans                              Medium
Security awareness training                 Medium             14             5            8          4
Testing of information security
                                              High             34            35          11          11
controls
Remedial actions                             High               5             4           2           4
Incident response                            High              22            17          10          11
                                            High &
Continuity of operations planning                              20            10            9         8
                                            Medium
 Total                                                       166           127

The Medicare contractor information security program evaluations covered several subcategories
within each FISMA control area. The “impact level” shown in Table 2 refers to the possible
level of adverse impact that could result from successful exploitation of gaps in any of the
subcategories depending on the organization’s mission and criticality and the sensitivity of the
systems and data involved. The actual ratings assigned to the subcategories were all high or
medium impact and were PwC’s assessments. Individual findings were assigned an overall risk
level on a subjective basis by PwC after considering the impact and likelihood of occurrence.
However, as stated in NIST Special Publication (SP) 800-115, Technical Guide to Information
Security Testing and Assessment, section 4.3, it is difficult to identify the risk level of individual
vulnerabilities because they rarely exist in isolation.

The following sections discuss the four FISMA control areas containing the most gaps. See
Appendix D for descriptions of each subcategory tested for the four control areas.


Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)        4
Policies and Procedures To Reduce Risk

According to NIST SP 800-53, Recommended Security Controls for Federal Information
Systems and Organizations:

         … the management of risk is a key element in the organization’s information
         security program and provides an effective framework for selecting the
         appropriate security controls for an information system—the security controls
         necessary to protect individuals and the operations and assets of the organization.
         The risk-based approach to security control selection and specification considers
         effectiveness, efficiency, and constraints taking into account applicable federal
         laws, Executive orders, directives, policies, regulations, standards, or guidelines.

All 11 Medicare contractors had from 2 to 4 gaps each. In total, PwC identified 41 gaps in this
area. Following are examples of gaps in policies and procedures to reduce risk:

    •    System configuration checklists did not include specific security settings that complied
         with CMS requirements.

    •    Systems operating in the contractor’s environment did not have the latest patches 2
         installed.

    •    Procedures to assess whether malicious software protection mechanisms have been
         installed and were up to date and operating effectively were not fully consistent with
         CMS requirements.

Ineffective policies and procedures to reduce risk could jeopardize an organization’s mission,
information, and information technology assets. Without adequate configuration standards and
the latest security patches, systems may be susceptible to exploitation that could lead to
unauthorized disclosure of data, data modification, or the unavailability of data.

Testing of Information Security Controls

The effectiveness of information security policies, procedures, practices, and controls should be
tested and evaluated at least annually (NIST SP 800-53, Recommended Security Controls for
Federal Information Systems and Organizations, Control CA-2). Security testing enables
organizations to measure levels of compliance in areas such as patch management, password
policy, and configuration management (NIST SP 800-115, section 2.3). Changes to an
application should be tested and approved before being put into production (FISCAM,
section 3.3).

All 11 Medicare contractors had from 2 to 4 gaps each related to testing of information security
controls. In total, 35 gaps were identified in this area.


2
  A patch is a piece of software designed to correct security and functionality problems in software programs and
firmware.

Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)                  5
Following are examples of gaps in testing of information security controls:

    •   The contractor’s configuration management process had not been fully executed for all
        platforms reviewed.

    •   The contractor’s system configurations for platforms reviewed did not comply with CMS
        requirements.

    •   Security weaknesses were identified as part of the internal network penetration testing.

Without a comprehensive program for periodically testing and monitoring information security
controls, management has no assurance that appropriate safeguards are in place to mitigate
identified risks.

Incident Detection, Reporting, and Response

The Executive Summary of NIST SP 800-61, Computer Security Incident Handling Guide, states
that:

        … computer security incident response has become an important component of
        information technology programs. Security-related threats have become not only
        more numerous and diverse but also more damaging and disruptive. New types of
        security-related incidents emerge frequently. Preventative activities based on the
        results of risk assessments can lower the number of incidents, but not all incidents
        can be prevented. An incident response capability is therefore necessary for
        rapidly detecting incidents, minimizing loss and destruction, mitigating any
        weaknesses that were exploited, and restoring computing services.

All 11 Medicare contractors had 1 or 2 gaps in incident response. In total, PwC identified 17
gaps in this area. Following are examples of gaps in incident response:

    •   The process for reviewing system logs did not comply with CMS requirements.

    •   Reportable incidents were not reported within the CMS-required timeframe.

    •   Policies and procedures for the review of audit logs did not contain detailed guidance
        about the process, identify tools to be used to support the process, or indicate the CMS
        requirements to accomplish log review.

Keeping the number of incidents reasonably low is very important to protect the business
processes of the organization. If security controls are insufficient, high volumes of incidents
may occur, which could overwhelm the incident response team. This could lead to slow and
incomplete responses and negative business effects (e.g., extensive damage to computer systems,
periods without computer service, and periods when data are unavailable).



Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)   6
Security Program and System Security Plans

An agency should ensure its information security policy is sufficiently current to accommodate
the information security environment and the agency mission and operational requirements
(NIST SP 800-100, Information Security Handbook: A Guide for Managers, section 2.2.5).
Organizations must screen employees before granting access to information and information
systems (NIST SP 800-53, Control PS-3); they should revoke system access immediately
following an employee termination (NIST SP 800-53, Control PS-4); and “system security
plan[s] should provide an overview of a system’s security requirements and describe the controls
in place or planned for meeting those requirements” (Executive Summary of NIST SP 800-18,
Guide for Developing Security Plans for Federal Information Systems).

Four of the eleven Medicare contractors had no identified gaps in security program and system
security plans, while the remaining 7 had from 1 to 3 gaps each. In total, PwC identified 14 gaps
in this area.

Following are examples of gaps in security program and system security plans:

    •   System access for terminated users was not suspended or removed within CMS-required
        timeframes.

    •   The contractor’s transfer procedures did not define the time period for access removal or
        reassignment.

    •   The contractor’s system security plan did not identify a complete list of platforms that
        supports Medicare operations.

If information security program requirements are not implemented and enforced, management
has no assurance that established system security controls will be effective in protecting valuable
assets, such as information, hardware, software, systems, and related technology assets that
support the organization’s critical missions.

                                            CONCLUSION

The scope of the work and sufficiency of documentation for all reported gaps were sufficient for
the 11 Medicare contractors reviewed by PwC. While the total number of gaps identified at the
Medicare contractors has decreased from FY 2010, deficiencies remain in the FISMA control
areas tested. CMS should continue to ensure that all gaps are remediated by the Medicare
contractors.

                                          CMS COMMENTS

CMS had no additional comments to the draft report. We have included CMS’s comments in
their entirety in Appendix E.




Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)   7
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We evaluated the FY 2011 results of the independent evaluations and technical assessments of
Medicare contractors’ information security programs. Our review did not include an evaluation
of internal controls. We performed our reviews of PwC working papers at CMS headquarters in
Baltimore, Maryland, and at Office of Inspector General regional offices from February through
April 2013.

METHODOLOGY

To accomplish our objectives, we performed the following steps:

        •   To assess the scope of the evaluations of contractor information security programs,
            we determined whether the AUPs included the eight FISMA control requirements
            enumerated in section 1874A(e)(1) of the Act.

        •   To assess the sufficiency of the evaluations of contractor information security
            programs, we reviewed PwC working papers supporting the evaluation reports to
            determine whether PwC sufficiently addressed all areas required by the AUPs. We
            also determined whether all security-related weaknesses were included in the PwC
            reports by comparing supporting documentation with the reports. We determined
            whether all findings in the PwC reports were adequately supported by comparing the
            reports with the PwC working papers.

        •   To report on the results of the evaluations, we aggregated the results in the individual
            contractor evaluation reports. For the PwC evaluations, we used the number of gaps
            listed in the individual contractor evaluation reports to aggregate the results.

We conducted this performance audit in accordance with generally accepted government
auditing standards, except that we did not obtain comments from PwC. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)   8
                                   APPENDIX B: LIST OF GAPS BY
                      FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                            CONTROL AREA AND MEDICARE CONTRACTOR

                                                 Control Areas (With Impact Levels)
                                          Security
                                          Program
                            Policies         and                                                Incident       Continuity
              Periodic        and          System                    Testing of                Detection,          of
                Risk       Procedures     Security      Security    Information                Reporting,      Operations
             Assessments   To Reduce        Plans      Awareness      Security     Remedial       and           Planning
Medicare      (High &         Risk       (High &        Training      Controls      Actions    Response         (High &     Total
Contractor    Medium)        (High)      Medium)       (Medium)        (High)       (High)       (High)         Medium)     Gaps
    1             0            4              0            0             3             0            1               1         9
    2             0            4              1            1             4             1            2               1        14
    3             0            4              1            1             3             0            1               2        12
    4             0            4              3            0             4             1            2               2        16
    5             0            2              0            0             2             0            1               0         5
    6             0            4              0            0             4             0            2               1        11
    7             0            4              0            0             3             0            2               0         9
    8             0            4              3            0             3             0            1               1        12
    9             1            4              2            2             4             1            2               1        17
   10             0            4              3            0             3             1            1               1        13
   11             0            3              1            1             2             0            2               0         9

  Total           1            41           14             5           35              4          17              10        127

          Note: Impact levels for FISMA control areas were derived by PwC.




          Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)           9
APPENDIX C: PERCENTAGE CHANGE IN GAPS PER MEDICARE CONTRACTOR

Contractor                  FY 2010 Gaps                       FY 2011 Gaps                 % Change
      1                         16                                  9                         (44%)
      2                         13                                 14                           8
      3                         14                                 12                         (14)
      4                         15                                 16                           7
      5                         12                                  5                         (58)
      6                         19                                 11                         (42)
      7                         13                                  9                         (31)
      8                         17                                 12                         (29)
      9                         22                                 17                         (23)
     10                          6                                 13                         117
     11                         19                                  9                         (53)
     Total                       166                               127                          (23%)




Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)      10
      APPENDIX D: RESULTS OF MEDICARE CONTRACTOR EVALUATIONS
      FOR FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
          CONTROL AREAS WITH THE GREATEST NUMBER OF GAPS

The “impact level” shown in Tables 1 through 4 on the following pages refers to the level of
adverse impact that could result from successful exploitation of a vulnerability in any of the
FISMA control areas. Impact can be described as high, medium, or low in light of the
organization’s mission and criticality and the sensitivity of the systems and data involved. PwC
assigned a rating of high or medium impact to each of the subcategories in the agreed-upon
procedures developed by CMS. Individual gaps were assigned an overall risk level on a
subjective basis by PwC after considering the impact of the gaps and likelihood of their
occurrence.




Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)   11
POLICIES AND PROCEDURES TO REDUCE RISK

The Medicare contractor information security program evaluations assessed seven subcategories
related to policies and procedures to reduce risk. The evaluation reports identified a total of 41
gaps in this FISMA control area.

                     Table 1: Policies and Procedures To Reduce Risk Gaps
                                                            Total No. of Gaps           Subcategory
                        Subcategory                           in This Area              Impact Level
       Documentation exists that outlines reducing
 1     the risk exposure identified in periodic risk                  0                      High
       assessments.
       Systems security controls have been tested
       and evaluated. The system/network
 2                                                                    0                      High
       boundaries have been subjected to periodic
       reviews/audits.
       All gaps in compliance per CMS’s minimum
       security requirements are identified in the
 3                                                                    0                      High
       results of management’s compliance
       checklist.
       Security policies and procedures include
 4     controls to address platform security                         10                      High
       configurations and patch management.
       The latest patches have been installed on
 5                                                                   11                      High
       contractor’s systems.
       Security settings included within internal
 6     checklists and comply with Defense                            10                      High
       Information Systems Agency standards.
       Malicious software protection has been
       installed on workstations/laptops, is up to
 7     date, and is operating effectively, and                       10                      High
       administrators are alerted of any malicious
       software identified on workstations/laptops.
        Total                                                        41




Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)     12
TESTING OF INFORMATION SECURITY CONTROLS

The Medicare contractor information security program evaluations covered seven subcategories
related to the testing of information security controls. The evaluation reports identified a total of
35 gaps in this FISMA control area.

                    Table 2: Testing of Information Security Controls Gaps
                                                        Total No. of Gaps                 Subcategory
                        Subcategory                       in This Area                    Impact Level
     Management reports exist for the review and
     testing of information security policies and
     procedures, including network risk assessments,
 1                                                              0                              High
     accreditations and certifications, internal and
     external audits, security reviews, and penetration
     and vulnerability assessments.
     Annual reviews and audits are conducted to
     ensure compliance with FISMA guidance from
     the Office of Management and Budget for
 2   reviews of security controls, including logical            8                              High
     and physical security controls, platform
     configuration standards, and patch management
     controls.
     Remedial action is being taken for issues noted in
 3                                                              0                              High
     audits.
 4   Change control management procedures exist.                0                              High
     Change control procedures are tested by
 5                                                              5                              High
     management to verify they are in use.
     Systems are configured according to documented
 6                                                             11                              High
     security configuration checklists.
     Weaknesses are identified by PwC during a
 7                                                             11                              High
     network attack and penetration test.
       Total                                                   35




Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)       13
INCIDENT DETECTION, REPORTING, AND RESPONSE

The Medicare contractor information security program evaluations assessed five subcategories
related to incident detection, reporting, and response. The evaluation reports identified a total of
17 gaps in this FISMA control area.

                                  Table 3: Incident Response Gaps
                                                            Total No. of Gaps           Subcategory
                      Subcategory                             in This Area              Impact Level
    Management has a process to monitor systems
1   and networks for unusual activity or intrusion                    0                      High
    attempts.
    Management has procedures to take and has
2   taken action in response to unusual activity,                     6                      High
    intrusion attempts, and actual intrusions.
    Management processes and procedures include
3   reporting of intrusion attempts and intrusions in                 0                      High
    accordance with FISMA guidance.
    Policies, procedures, and security configuration
    checklists related to intrusion detection systems
    within the network are in place, controls
4   comply with documented security                                   0                      High
    configuration checklists, and there is a process
    for monitoring intrusion detection system
    alerts.
    Log management procedures have been
    developed and implemented for specific
5                                                                    11                      High
    platforms, and intrusion detection systems have
    been properly placed and configured.
      Total                                                           17




Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)     14
SECURITY PROGRAM AND SYSTEM SECURITY PLANS

The Medicare contractor information security program evaluations assessed 11 subcategories
related to security program and system security plans. The evaluation reports identified a total of
14 gaps in this FISMA control area.

                  Table 4: Security Program and System Security Plan Gaps
                                                        Total No. of
                                                        Gaps in This     Subcategory
                         Subcategory                       Area         Impact Level
 1    A security plan is documented and approved.             0             High
 2    The security plan is kept current.                      4            Medium
      A security management structure has been
 3                                                            0             High
      established.
      Information security responsibilities are clearly
 4                                                            0             High
      assigned.
 5    Owners and users are aware of security policies.        0             High
      Hiring, transfer, termination, and performance
 6                                                            2             High
      policies address security.
 7    Employee background checks are performed.               2            Medium
      Security employees have adequate security
 8                                                            0            Medium
      training and background.
      Management has documented that it
      periodically assesses the appropriateness of
 9    security policies and compliance with them,             3             High
      including testing of security policies and
      procedures.
      Management ensures that corrective actions are
10                                                            0            Medium
      effectively implemented.
      Hired, transferred, and terminated employees
11    have their access properly added, changed, or           3            Medium
      removed.
        Total                                               14




Review of Medicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-30100)   15
                                           APPENDIX E: CMS COMMENTS 



      /,P.'IilieQ'
            ~
  (
      ,-sz'­          DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Centers t or Medicare & Medicaid Services


                                                                                                Administrator
                                                                                                Washington. DC 20201




                     DATE:            NOV 18 2913


                     TO:            Daniel R . Levinson
                                    Inspector General

                     FROM:
                                                  r

                     SUBJECT: 	 Office of Inspector Genera l's (OIG) Draft Report: "Review of Medicare
                                Contractor Information Security Program Evaluations for Fiscal Year 2011 "
                                (A-18-13-30 I 00)

                     The Medicare Prescription Drug, Improvement, and Modernization Act of2003 amended section
                     1874A of the Social Security Act. The modification added informat ion sec urity requirements for
                     Medicare administrative contractors (MACs), fiscal intermediaries and carriers, which process
                     and pay Medicare fee-for-service claims. To comply with these requirements, CMS contracted
                     with PricewaterhouseCoopers (PwC) to eva luate information sec urity programs at the MACs,
                     fiscal intermediaries and carriers using a se t of agreed-upon procedures. The objective of the
                     review was to assess the scope and sufficiency of Medicare contractor information sec urity
                     program evaluations and report the results of those evaluations.

                     The Social Security Act also requires evaluations of the information securi ty controls for a subset
                     of systems but does not specify the criteria for these evaluations. To satisfy this requirement,
                     CMS expanded the scope of its eval uations to test segments of the Medicare claims processi ng
                     system s hosted at the Medicare data centers, which s upport eac h of the MACs, fiscal
                     intermediaries and carriers. The CMS offers no add itional comments to submit.

                     The CMS thanks the O IG for their efforts on this issue and look s forward to working with OIG
                     on this and other issues in the future.




Review ofMedicare Contractor Information Security Program Evaluations for FY 2011 (A-18-13-301 00)                                          16
